APPENDIX TABLE OF CONTENTS

United States v. Beckham, 917 F.3d 1059

(8th Cir. 2019)..................................................... 1a

Order of the Eighth Circuit Granting Motion for
Release on Bail Pending Appeal
(May 15, 2018) .................................................. 16a
Order Denying Motion to Stay Trial Due to Pending Supreme Court Case, United States v.
Beckham, 4:16-CR-300-RLW
(E.D. Mo. August 10, 2017) .............................. 18a
Order Denying Motion for Judgment of Acquittal
or, in the Alternative, Motion for New Trial,
United States v. Beckham, 4:16-CR-300-RLW
(E.D. Mo. November 7, 2017) ........................... 21a
Order of the Eighth Circuit Denying Petition for
Rehearing En Banc (April 15, 2019) ................ 34a
Jury Instruction No. 9 ............................................ 35a
Special Verdict Form (September 13, 2017) .......... 36a

App.1a

UNITED STATES V. BECKHAM,
917 F.3D 1059 (8TH CIR. 2019)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
MARK A. BECKHAM,

Defendant-Appellant.

________________________
No. 18-1406

Appeal from United States District Court
for the Eastern District of Missouri–St. Louis
Before: GRUENDER, WOLLMAN, and
SHEPHERD, Circuit Judges.
SHEPHERD, Circuit Judge.
Mark Beckham appeals his conviction for corruptly
endeavoring to obstruct and impede the due administration of the internal revenue laws in violation of 26
U.S.C. § 7212(a). Beckham argues that the jury instructions were erroneous, that the district court1 erroneously admitted evidence and expert testimony, and
that the district court should have granted his motion
1 The Honorable Ronnie L. White, United States District Judge
for the Eastern District of Missouri.

App.2a
for a mistrial based on improper witness statements.
Having jurisdiction under 28 U.S.C. § 1291, we affirm.
I.
In 2009 and 2010, Beckham prepared and filed tax
returns for John Horseman, owner of the financial
advisory firm JM Horseman Group, LLC. Beckham
allegedly induced Horseman to participate in a taxloss scheme designed to offset Horseman’s own taxes.
As part of this scheme, Horseman signed subscription
agreements giving him $3,300,000 of common stock
in Arbor Homes, Inc. and $3,000,000 of equity in
SNB Consulting, LLC. Horseman initially paid roughly
$80,000 in cash and executed over $6 million in
promissory notes pursuant to the subscription agreements. In return, Horseman claimed losses sustained
by these businesses on his individual and corporate
tax returns. Horseman eventually made around
$240,000 in payments on these notes, but made the
payments to an entity Beckham controlled rather
than to Arbor Homes or SNB Consulting.
Horseman’s 2009 and 2010 individual returns
claimed “nonpassive” losses from Arbor Homes that
totaled $4.3 million. Taxpayers prefer to claim nonpassive losses because they may offset ordinary
income, while passive losses may only offset passive
income. However, in order to claim nonpassive losses,
a taxpayer must have a sufficient economic investment
in a business entity, and the taxpayer must also
materially participate in the entity’s activities. See
26 U.S.C. §§ 469(c), 1366(d); 26 C.F.R. § 1.469-5T.
Horseman did not work for or otherwise materially
participate in Arbor Homes during this time period.
In addition, the Horseman Group’s 2010 corporate

App.3a
tax return—also prepared by Beckham—claimed $1.8
million in partnership losses from SNB Consulting.
However, this loss exceeded the Horseman Group’s
basis in SNB Consulting.
In 2011, the IRS began a civil audit of Horseman’s
2009 individual tax return, later expanding that audit
to include the 2010 individual and corporate returns.
Beckham provided the IRS agents assigned to the audit
with completed forms authorizing him to act as
Horseman’s representative, representing that he was
a currently-licensed CPA in Missouri. In reality, Beckham was not licensed as a CPA, which would have
precluded him from serving as Horseman’s representative.
In the course of the audit, IRS Revenue Agent
Anthony Grinstead requested information regarding
Horseman’s participation in Arbor Homes. Agent
Grinstead requested this information in order to verify
that Horseman met the “material participation” requirement to claim Arbor Homes’ losses as nonpassive
losses. In response to this request, Beckham provided
Agent Grimstead with Horseman’s 2009 day planner,
which contained falsified entries purportedly showing
that Horseman had worked several hundred hours for
Arbor Homes during 2009.
The IRS continued to request additional documents, many of which Beckham never provided or
admitted did not exist. On July 23, 2012, the IRS discovered Beckham was not a licensed CPA. Beckham
told the agents conducting the investigation that his
license had lapsed and he was in the process of getting
it renewed. In reality, Beckham’s license had been
revoked in 2008, following a 2006 federal conviction

App.4a
for mail fraud. See Gov’t Mot. Determ. Admissibility
Evid. 2, Dist. Ct. Dkt. 92.
On April 3, 2013, the IRS discovered that Horseman “did not pay Arbor Homes 3 million dollars . . .
[and] had not paid any money on the loan.” Evid.
Hr’g Tr. 68, Dist. Ct. Dkt. 51. This indicated that the
deal between Horseman and Arbor Homes was a
sham, and that Horseman had overstated his economic
interest in Arbor Homes and had improperly claimed
Arbor Homes’ losses on his individual tax returns.
Suspecting fraud, IRS Revenue Agent John Shake
referred the case to IRS criminal investigation. While
the initial referral was for criminal investigation of
Horseman, the IRS later added Beckham as a target.
In June 2013, Beckham admitted to IRS Special
Agent Patric Murray that the nonpassive losses Horseman claimed from Arbor Homes were actually passive
losses because Horseman was not sufficiently involved
in Arbor Homes.
Beckham was charged in a superseding indictment
with one count of corruptly endeavoring to obstruct
the due administration of the internal revenue laws
in violation of 26 U.S.C. § 7212(a) and three counts of
willfully assisting in the preparation of false tax returns
in violation of 26 U.S.C. § 7206(2). He filed a pretrial
motion to suppress all evidence the IRS gathered
after July 23, 2012, claiming that after that date the
IRS impermissibly conducted a criminal investigation
under the guise of a civil audit. The district court
denied Beckham’s motion.
On June 27, 2017, the Supreme Court granted
certiorari in United States v. Marinello, 839 F.3d 209
(2d Cir. 2016), cert. granted 137 S.Ct. 2327 (2017), to
resolve a circuit split over whether § 7212(a) requires

App.5a
a defendant to know about a pending IRS proceeding
when he engages in purportedly obstructive conduct.
Beckham filed a motion to stay his trial pending the
Supreme Court’s decision. The district court denied
Beckham’s motion, agreeing with the government that
the issue could be addressed through the use of a
special verdict form that asked the jury whether
Beckham committed a corrupt act after becoming aware
of the audit and, if so, what that act was. Beckham
also filed a motion in limine to exclude the proposed
expert testimony of IRS Revenue Agent Sarah Parman
regarding Parman’s opinion that the losses claimed
on Horseman’s tax returns were improper. The district
court denied that motion as well.
Horseman testified at trial. During his testimony,
the prosecution asked Horseman whether he had ever
stopped making payments to Beckham pursuant to the
subscription agreements. Horseman responded that he
eventually stopped making such payments because
a tax attorney told him the deal was “fraudulent.”
Beckham moved for a mistrial based on this statement.
The district court denied the motion, but offered to
give a curative instruction instead. Beckham declined
the offer.
At the instruction conference, Beckham objected
to Jury Instruction 9—the instruction on the § 7212(a)
offense—because it did not require the jury to find
that he knew about the IRS audit at the time that he
committed a corrupt act. He also argued that the special
verdict form—which directed the jurors, if they found
Beckham guilty of that offense, to indicate whether
Beckham committed “at least one corrupt act after
becoming aware of the existence of an Internal Revenue
Service audit or proceeding[,]” see Proposed Jury

App.6a
Instructions 25, Dist. Ct. Dkt. 96, and, if so, to identify
which corrupt act they unanimously agreed Beckham
committed after learning of the proceeding—did not
cure the faulty instruction. Beckham did not, however,
specifically object to the language of the special
verdict form. The district court overruled his objection.
The jury acquitted Beckham of the three § 7206(2)
charges, but found him guilty of violating § 7212(a).
On the special verdict form, the jury indicated that it
found Beckham committed at least one corrupt act after
learning of the audit and that it unanimously agreed
Beckham committed the acts alleged in paragraph 10
of the Superseding Indictment—submitting Horseman’s
day planner to the IRS—after learning of the audit.
Beckham filed a motion for judgment of acquittal or,
in the alternative, for a new trial, which the district
court denied. The district court sentenced Beckham
to 36 months imprisonment and Beckham appealed.
II.
Six months after Beckham’s trial, the Supreme
Court decided Marinello v. United States, 138 S.Ct.
1101 (2018). The Court held that, for a § 7212(a) offense,
“the Government must show . . . that there is a ‘nexus’
between the defendant’s conduct and a particular
administrative proceeding[.]” Marinello, 138 S.Ct. at
1109. Further, that proceeding must be “reasonably
foreseeable by the defendant” at the time he acted.
Id. at 1110. Because “[i]t is not enough for the Government to claim that the defendant knew the IRS may
catch on to his unlawful scheme eventually[,]” if the
proceeding is currently pending, the defendant must
be aware of that proceeding. Id.

App.7a
Before Marinello, this Court required three elements for a § 7212(a) offense: “(1) in any way corruptly
(2) endeavoring (3) to obstruct or impede the due
administration of the Internal Revenue Code.” United
States v. Williams, 644 F.2d 696, 699 (8th Cir. 1981),
superseded by statute on other grounds, Tax Reform
Act of 1984, Pub. L. No. 98-369, § 159, 98 Stat. 494,
696, as recognized in United States v. Brooks, 174 F.3d
950, 956 (8th Cir. 1999). Marinello thus added two
elements—a nexus and knowledge of a currentlypending or reasonably foreseeable proceeding—that
this Court did not previously require. Beckham argues
on appeal that the district court erroneously instructed the jury on the § 7212(a) offense by failing to
include these two elements. The government concedes
on appeal that, post-Marinello, Jury Instruction 9 is
erroneous. However, the government contends that
the district court cured the instructional error through
the use of a special verdict form and that, even if the
special verdict form did not cure the error, the error
was harmless.
We apply “harmless error analysis . . . to issues
of instructional error,” including “omitting an element
altogether.” United States v. Dvorak, 617 F.3d 1017,
1024-25 (8th Cir. 2010) (citation omitted). An instructional error is harmless beyond a reasonable doubt if
the evidence supporting the jury’s verdict is so overwhelming that no rational jury could find otherwise.
Neder v. United States, 527 U.S. 1, 18-19 (1999)
(stating that an error is harmless if “the court can[]
conclude beyond a reasonable doubt that the jury
verdict would have been the same absent the error”);
see also United States v. Inman, 558 F.3d 742, 750-51
(8th Cir. 2009) (finding evidence sufficient to support

App.8a
conviction despite failure to submit an element of the
offense to the jury when the government presented
uncontroverted testimony on the disputed element).
Whether the instructional error here was harmless
hinges on whether overwhelming evidence supports
finding (1) that there was a nexus—in either time,
causation, or logic—between Beckham’s actions and
the IRS audit; and (2) that Beckham knew or should
have known about the audit when he committed some
corrupt act. See Marinello, 138 S.Ct. at 1109-10.
We first address Marinello ’s nexus requirement.
Marinello requires the prosecution to prove that a

defendant’s actions had “a relationship in time, causation, or logic with [a pending IRS] proceeding.” Id.
at 1109 (internal quotation marks omitted). The government relies on a specific action to prove the nexus
requirement—Beckham providing the IRS with Horseman’s falsified day planner. Because the IRS indisputably obtained the day planner as a functional part
of the audit during the audit, if Beckham provided the
IRS with the planner, that would be an act that has a
nexus in time, causation, and logic to the pending IRS
audit.
At trial, Agent Grinstead testified that he received
Horseman’s planner from Beckham at an in-person
meeting on January 19, 2012, while conducting the
audit. 3 Trial Tr. 103, Dist. Ct. Dkt. 167. Beckham
never contradicted this testimony, arguing only that
he acted as Horseman’s representative in his contacts
with the IRS. See 3 Trial Tr. 103, 144-45, Dist. Ct.
Dkt. 167. Because, then, the government presented
uncontroverted evidence that Beckham gave Agent
Grinstead the day planner—evidence that Beckham did
not attempt to dispute, see Inman, 558 F.3d at 750

App.9a
(finding testimony constituted overwhelming evidence
when the defendant “did not question the credibility
or accuracy of [the] testimony”)—no rational juror
could find that Beckham did not give the day planner
to the IRS. See id. (“We have no doubt that any rational
jury would have concluded that the government proved
the [disputed element], for the record contains no
evidence that could rationally lead to a contrary
finding.”). We therefore find the jury instruction error
harmless as to the nexus requirement.
In addition to the nexus requirement, Marinello
requires a defendant to act with knowledge or a reason
to know of a pending or imminent IRS proceeding, such
as an IRS audit. Marinello, 138 S.Ct. at 1104. We
find that the evidence overwhelmingly shows Beckham
knew of a currently-pending IRS audit at the time he
gave Agent Grinstead Horseman’s day planner. On
December 1, 2011—over a month before his meeting
with Agent Grinstead—Beckham undisputedly submitted falsified power of attorney forms allowing him
to act as Horseman’s representative throughout the
audit. See 3 Trial Tr. 75, Dist. Ct. Dkt. 167. He then
proceeded to actually act on Horseman’s behalf during
the audit. Significantly, Beckham provided Agent
Grinstead with the planner in response to a request
for information undisputably made as part of the
audit. We therefore find that no rational jury could
find Beckham was unaware of a pending IRS proceeding—the audit—at the time the IRS received the
day planner.
Because we conclude that no rational jury could
find reasonable doubt as to either of the two Marinello
elements, we find that failure to instruct the jury on
those elements was harmless. We thus need not

App.10a
determine whether the special verdict form properly
cured the instructional error, and we decline to reverse
Beckham’s conviction on these grounds.
III.
Beckham appeals the district court’s denial of
his motion to exclude Agent Parman’s expert testimony,
arguing that the district court impermissibly allowed
her to instruct the jury on what the law is. “We review
the district court’s decision to admit expert testimony
for abuse of discretion, according it substantial deference.” United States v. Bailey, 571 F.3d 791, 803 (8th
Cir. 2009). “Improperly admitted testimony warrants
reversal of a conviction if the testimony substantially
influence[d] the jury’s verdict.” United States v.
Merrell, 842 F.3d 577, 582 (8th Cir. 2016) (alteration
in original) (internal quotation marks omitted).
Agent Parman testified that, in her opinion,
Horseman improperly claimed the nonpassive losses
on his tax returns because he did not materially participate in Arbor Homes—a key part of the government’s case against Beckham on the § 7206(2) charges.
As part of her testimony, she discussed statutory
requirements and regulatory tests for whether a
shareholder has materially participated in a business.
Beckham alleges that her testimony was improper
because she instructed the jury on (1) the economic
substance doctrine; and (2) the law regarding material
participation. Significantly, these two points relate
only to the § 7206(2) charges against Beckham and
do not relate whatsoever to the sole count of conviction—the § 7212(a) offense. Thus, even if Parman
testified improperly, her testimony did not influence
the jury because it acquitted Beckham of the charges

App.11a
about which she testified. See United States v. Shores,
700 F.3d 366, 374 (8th Cir. 2012) (finding that any
error in admitting testimony was harmless when the
jury acquitted the defendant of the charge to which
the testimony related); United States v. Webb, 214
F.3d 962, 965 (8th Cir. 2000) (same). We therefore
decline to reverse Beckham’s conviction based on
improper testimony, and we uphold the district court’s
denial of Beckham’s motion to exclude.
IV.
Beckham next argues that the district court
improperly denied his motion to suppress evidence
that the IRS obtained after the civil audit morphed
into a criminal investigation. Specifically, Beckham
alleges that any evidence gathered after the IRS discovered he lacked a valid CPA license was inadmissible
because, at that point, the IRS began investigating
him for criminal activity while maintaining that it
was merely conducting a civil audit of Horseman. We
review facts underlying denial of a motion to suppress
for clear error, and we apply de novo review to any
“legal conclusions based upon those facts.” United
States v. Wadena, 152 F.3d 831, 851 (8th Cir. 1998).
“[T]he IRS may not develop a criminal investigation under the auspices of a civil audit.” United
States v. Grunewald, 987 F.2d 531, 534 (8th Cir. 1993).
In order to succeed on a motion to suppress evidence
obtained through a criminal investigation disguised
as a civil audit, a defendant must show that “1) the
IRS had firm indications of fraud by the defendant,
2) there is clear and convincing evidence that the IRS
affirmatively and intentionally misled the defendant,
and 3) the IRS’s conduct resulted in prejudice to

App.12a
defendant’s constitutional rights.” Id. Here, Beckham
seeks to suppress all evidence he provided to the IRS
after July 23, 2012—the date the IRS discovered
Beckham was not a licensed CPA.2
Firm indications of fraud are different than initial
indications or suspicions. Wadena, 152 F.3d at 851.
Whether the IRS had firm indications of fraud is a
question of fact. Id. Here, the district court found
that the IRS had only “a mere suspicion of fraud”
until it discovered that a loan on Horseman’s tax
returns was a sham. Beckham points to nothing that
indicates this factual finding is clearly erroneous. He
presented the IRS with a plausible explanation for
his license expiration when asked why he had no CPA
license. At most, the IRS merely suspected the case
might involve fraud until it discovered the sham loan,
at which point it suspended the civil audit. Thus, we
find no clear error in the district court’s determination
that the IRS developed firm indications of fraud on
April 3, 2013—the date it discovered the sham loan.
Affirmative and intentional misleading requires
something more than the IRS failing to tell the defendant that “information developed in an audit may result
in a further criminal investigation . . . .” Grunewald,
987 F.2d at 534. To affirmatively and intentionally
deceive a defendant by disguising a criminal investigation as a civil audit, the IRS must utilize the audit
“with the express purpose of obtaining records for the
2 Neither party has raised the issue of whether Beckham could
credibly be considered a target of the audit—which focused on
Horseman and the Horseman Group—or discussed whether
Beckham must be considered a target of the audit for Grunewald
to apply. We therefore decline to address these questions and
assume that Grunewald’s framework applies.

App.13a
criminal investigation.” Wadena, 152 F.3d at 852. This
Court has found no Grunewald violation when a civil
auditor failed to inform defendants about a simultaneous criminal investigation conducted by a different
IRS agent. Here, despite preliminary consultations
with an IRS Fraud Technical Advisor, the auditing
agents did not involve IRS Criminal Investigation in
the case until after they suspended the civil audit.
We thus find no clear error in the district court’s
determination that the IRS did not affirmatively and
intentionally mislead Beckham.
We also agree with the district court that the IRS’s
conduct in its audit of Horseman’s individual and
corporate tax returns did not violate Beckham’s constitutional rights. Beckham moved to suppress all
evidence gathered after July 23, 2012. However, the
only count of conviction hinged on evidence provided
to the IRS in January 2012—six months before that
cutoff date. Because the IRS collected this evidence
before the date Beckham alleges a criminal investigation began, Beckham cannot claim that it was the
fruit of that investigation. We thus find no clear error
in the district court’s determination that the IRS’s
conduct did not result in prejudice to Beckham’s constitutional rights.
Finding no error in the district court’s analysis
of the relevant factors, we find no error in the district
court’s denial of Beckham’s motion to suppress. We
affirm the district court’s ruling.
V.
Finally, Beckham argues that the district court
erred in denying his motion for a mistrial based on
improper statements Horseman made while testifying.

App.14a
We review a district court’s denial of a motion for a
mistrial based on improper witness statements for an
abuse of discretion. United States v. Branch, 591
F.3d 602, 607 (8th Cir. 2009).
A mistrial is a drastic remedy for jury exposure
to improper witness statements—a remedy which we
disfavor. United States v. Sherman, 440 F.3d 982,
987 (8th Cir. 2006). This Court considers five factors
in determining whether a motion for a mistrial based
on improper witness statements should be granted:
“(1) whether the remark was unsolicited; (2) whether
the government’s line of questioning was reasonable;
(3) whether a limiting instruction was immediate,
clear, and forceful; (4) whether any bad faith was
evidenced by the government; and (5) whether the
remark was only a small part of the evidence against
the defendant.” Branch, 591 F.3d at 608 (citing United
States v. Caver, 470 F.3d 220, 243 (6th Cir. 2006).
Beckham moved for a mistrial based on Horseman’s statement that Beckham’s actions constituted
fraud, an element of the § 7206(2) charges. Applying
the Branch factors here, we find no abuse of discretion in the district court’s decision to deny Beckham’s
motion. The government asked Horseman if he ever
stopped paying Beckham pursuant to the subscription agreements. Horseman responded that he continued making payments until he “spoke with a tax
attorney who informed [him] that this whole deal was
fraudulent . . . .” 2 Trial Tr. 106-07, Dist. Ct. Dkt.
166. His statement as to fraud did not directly respond
to the question and was therefore unsolicited. See
Branch, 591 F.3d at 608. The government’s line of
questioning directly related to the charges against
Beckham. While the district court did not give a

App.15a
curative instruction, it failed to do so because Beckham
refused such an instruction. See United States v.
Peyton, 108 F.3d 876, 878 (8th Cir. 1997) (upholding
denial of a motion for a mistrial when the district
court offered a curative instruction and the defendant
refused it). The jury clearly disregarded Horseman’s
statement that the “deal was fraudulent” because it
acquitted Beckham of the charges with fraud as an
element—the § 7206(2) charges. Moreover, whether
Beckham convinced Horseman to enter into a fraudulent transaction is irrelevant to the sole count of conviction—obstructing and impeding administration of
the internal revenue laws—because fraud is not a
requirement for that offense. See 26 U.S.C. § 7212(a).
We therefore uphold the district court’s denial of
Beckham’s motion for a mistrial.
We affirm the district court’s judgment.

App.16a
ORDER OF THE EIGHTH CIRCUIT
GRANTING MOTION FOR RELEASE
ON BAIL PENDING APPEAL
(MAY 15, 2018)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Appellee,
v.
MARK A. BECKHAM,

Appellant.

________________________
No. 18-1406

Appeal from United States District Court
for the Eastern District of Missouri–St. Louis
(4:16-cr-00300-RLW-1)
Before: GRUENDER, WOLLMAN, and
SHEPHERD, Circuit Judges.
Appellant’s motion for release on bail pending
appeal is granted. The release shall be upon such
conditions as may be set by the United States District
Court for the Eastern District of Missouri upon receipt
of a copy of this order.
Order Entered at the Direction of the Court:

App.17a
/s/ Michael E. Gans
Clerk, U.S. Court of Appeals,
Eighth Circuit
May 15, 2018

App.18a
ORDER DENYING MOTION TO STAY TRIAL DUE
TO PENDING SUPREME COURT CASE,
UNITED STATES V. BECKHAM, 4:16-CR-300-RLW
(E.D. MO. AUGUST 10, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
MARK A. BECKHAM,

Defendant.

________________________
No. 4:16CR300 RLW

Before: Ronnie L. WHITE, United States District Judge.
This matter is before the Court on Defendant Mark
Beckham’s Motion to Stay Trial Due to Pending
Supreme Court Case (ECF No. 83). The Government
has filed a response in opposition. Defendant has not
filed a reply, and the time for doing so has expired.
In his motion to stay, Defendant Mark Beckham
(“Beckham”) requests that the Court stay his trial
pending the Supreme Court’s decision in United States
v. Marinello, 839 F.3d 209 (2d Cir. 2016), cert. granted,
No. 16-1144, 2017 WL 1079367 (U.S. June 27, 2017).
Beckham contends that the Marinello opinion will

App.19a
directly impact the trial and the jury instructions.
Beckham argues that, if he is convicted, a reversal of
Marinello would require reversal of his case and a
second trial. Specifically, Beckham claims that
Marinello “will settle the precise question of whether
an allegedly ‘corrupt act’ that occurs before a defendant
is aware of a pending IRS action or proceeding is
sufficient to sustain a conviction under Section 7212(a)’s
‘omnibus clause.’” (Def.’s Mot. to Stay pp. 2-3) Beckham
asserts that fairness and judicial economy weigh in
favor of staying the trial.
The Government, on the other hand, argues that
staying the case for an indefinite amount of time
pending a Supreme Court decision in Marinello is not
justified. The Government maintains, and the Court
agrees, that the fact that the Supreme Court has
granted certiorari does not necessarily mean that the
Supreme Court will actually decide the case. Additionally, Beckham provides no indication when the
Supreme Court may issue an opinion in Marinello,
and such date is impossible to predict.
“‘The power to stay proceedings is incidental to
the power inherent in every court to control the
disposition of the causes on its docket with economy
of time and effort for itself, for counsel, and for
litigants.’” SSDD, LLC v. Underwriters at Lloyd’s,
London, No. 4:13-CV-258 CAS, 2013 WL 2420676, at *4
(E.D. Mo. June 3, 2013) (quoting Landis v. N. Am.
Co., 299 U.S. 248, 254 (1936)). “In determining whether
to stay an action, a court must exercise its judgment
to ‘weigh competing interests and maintain an even
balance.’” Id. (quoting Landis, 299 U.S. at 254-55).
Courts weigh “the potential prejudice or hardship to
the parties, as well as the interest of judicial economy.”

App.20a

Perrin v. Papa John’s Int’l, Inc., No. 4:09-CV-01334AGF, 2015 WL 3823142, at *4 (E.D. Mo. June 19, 2015)
(citations omitted).
Here, the Court finds that the prejudice to the
government in delaying prosecution of this case, as
well as judicial economy warrants denial of Beckham’s
motion. As stated by the Government, a special verdict
form will eliminate any need for retrial in this case.
The jury will be asked whether Defendant committed
at least one corrupt act after becoming aware of the
IRS audit and what specific act he committed. Thus,
no hardship will befall Defendant Beckham because
the special verdict form will safeguard against the
need for a second trial regardless of the Supreme
Court’s decision in Marinello. Indeed, Beckham has
not contested the Government’s assertion that a special
verdict form eliminates the potential hardship to
Beckham that forms the basis of his motion to stay.
Therefore, the Court will deny Defendant’s motion to
stay.
Accordingly,
IT IS HEREBY ORDERED that Defendant Motion
to Stay Trial Due to Pending Supreme Court Case (ECF
No. 83) is DENIED.
Dated this 10th day of August, 2017.
/s/ Ronnie L. White
United States District Judge

App.21a
ORDER DENYING MOTION FOR
JUDGMENT OF ACQUITTAL OR, IN THE
ALTERNATIVE, MOTION FOR NEW TRIAL,
UNITED STATES V. BECKHAM, 4:16-CR-300-RLW
(E.D. MO. NOVEMBER 7, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
MARK A. BECKHAM,

Defendant.

________________________
No. 4:16CR300 RLW

Before: Ronnie L. WHITE, United States District Judge.
This matter is before the Court on Defendant Mark
Beckham’s Motion to for Judgment of Acquittal or, in
the Alternative, Motion for a New Trial (ECF No. 135).
The Government has filed a response in opposition,
and Defendant has filed a reply.
I. Background
On February 22, 2017, Defendant Mark Beckham
(“Beckham”) was charged in a four-count superseding
indictment (“SI”) alleging three counts of willfully aiding

App.22a
and assisting in the preparation and presentation of
a false income tax return in violation of 26 U.S.C.
§ 7206(2) (Counts 2 through 4) and one count of corruptly endeavoring to obstruct or impede the due
administration of the internal revenue laws in
violation of 26 U.S.C. § 7212(a) (Count 1). (ECF No.
59) On September 13, 2017, the jury returned a verdict
finding Beckham not guilty on Counts 2 through 4 and
guilty on Count 1. The jury found that Beckham
corruptly endeavored to obstruct or impede the due
administration of the internal revenue laws and that
one of these acts was committed after becoming aware
of the existence of an Internal Revenue Service audit,
namely causing JH’s dayplanner calendar which
contained false entries relating to Arbor Homes, Inc.
to be submitted to the Internal Revenue Service as
set forth in paragraph 10 of the SI.
Prior to the trial, Beckham raised an issue
currently pending before the United States Supreme
Court in Marinello v. United States, 137 S.Ct. 2327
(2017). A conflict exists among circuit courts of appeals.
The Sixth Circuit has held that a defendant could not
be found guilty of corruptly obstructing or impeding
the administration of the internal revenue laws in
violation of § 7212(a) for conduct which occurred before
the defendant became aware of an IRS audit or
proceeding. See United States v. Miner, 774 F.3d 336,
345 (6th Cir. 2014) and United States v. Kassouf, 144
F.3d 952, 957 (6th Cir. 1998). The First, Second, Fifth,
Ninth, and Tenth Circuits have held that a defendant
does not need to be aware of a pending IRS action.
See United States v. Westbrooks, 858 F.3d 317, 32224 (5th Cir. 2017); United States v. Marinello, 839 F.3d
209, 217-23 (2d Cir. 2016); United States v. Sorensen,

App.23a
801 F.3d 1217, 1232 (10th Cir. 2015); United States v.
Floyd, 740 F.3d 22, 31-32 n.4 (1st Cir. 2014); United
States v. Massey, 419 F.3d 1008, 1010 (9th Cir. 2005).
The Eighth Circuit has not addressed the issue.
Beckham previously filed a motion to strike
surplusage, seeking to strike paragraphs 1-8 of the
SI because the acts occurred before he became aware
of a pending IRS action or proceeding. (ECF No. 65)
Magistrate Judge Shirley P. Mensah issued a Report
and Recommendation, recommending that Beckham’s
motion be denied, and this Court adopted said Report
and Recommendation and denied the motion to strike
surplusage. (ECF Nos. 75, 82) The Court agreed with
Judge Mensah that a limiting instruction at trial
would ameliorate any potential prejudice stemming
from paragraphs 1-8. (ECF No. 75 p. 5)
Beckham also filed a motion to stay the trial
pending the Supreme Court’s determination in
Marinello. (ECF No. 83) The Court denied the motion,
finding that a special verdict form would safeguard
against the need for a second trial regardless of the
Supreme Court’s decision in Marinello because the
jury would be asked whether Beckham committed at
least one corrupt act after becoming aware of the IRS
audit and what specific act he committed. (ECF No.
86 p. 2) On September 13, 2017, after a six-day jury
trial, the jury unanimously agreed that Beckham was
guilty on Count 1 and found that he was aware of the
existence of an IRS audit or proceeding when he caused
JH’s dayplanner calendar which contained false entries
relating to Arbor Homes, Inc. to be submitted to the
IRS as set forth in paragraph 10 of the SI.
On September 27, 2017, Beckham filed the present
Motion to for Judgment of Acquittal or, in the

App.24a
Alternative, Motion for a New Trial. (ECF No. 135)
Beckham argues that the Court should enter a judgment of acquittal pursuant to Rule 29(c) of the Federal
Rules of Criminal Procedure because the evidence was
insufficient to support a conviction of Count 1 based
on the single alleged corrupt act charged in paragraph
10 because delivery of the dayplanner containing false
entries is not legally sufficient to constitute the charged
felony. In the alternative, Beckham requests a new trial
arguing that the evidence is insufficient to sustain a
conviction on Count 1; the Court improperly instructed the jury on Count 1 because the instruction was
inconsistent with the Sixth Circuit’s scope of § 7212(a);
the Court improperly permitted the Government’s expert witness to testify as to the law over Beckham’s
objections; the Court improperly prohibited Beckham
from cross-examining the lead special agent on alleged
criminal conduct in 2005; and the Court improperly
denied Beckham’s motion for a mistrial.
II. Discussion
A.

Motion for Judgment of Acquittal

“When reviewing the sufficiency of the evidence
for a judgment of acquittal, [courts] ‘view[ ] the evidence in the light most favorable to the guilty verdict,
resolving all evidentiary conflicts in favor of the government, and accepting all reasonable inferences
supported by the evidence.’” United States v. Gonzales,
826 F.3d 1122, 1125-26 (8th Cir. 2016) (quoting United
States v. No Neck, 472 F.3d 1048, 1052 (8th Cir. 2007)).
“A motion for judgment of acquittal should be granted
only ‘if there is no interpretation of the evidence that
would allow a reasonable jury to find the defendant
guilty beyond a reasonable doubt.’” United States v.

App.25a

Cacioppo, 460 F.3d 1012, 1021 (8th Cir. 2006) (quoting
United States v. Gomez, 165 F.3d 650, 654 (8th Cir.

1999)). “When ‘considering a motion for judgment of
acquittal, a district court has very limited latitude.’
. . . The district court does not ‘weigh the evidence or
assess the credibility of the witnesses.’” United States
v. Thompson, 285 F.3d 731, 733 (8th Cir. 2002)
(quoting United States v. Robbins, 21 F.3d 297, 29899)).

Count I of the SI charged Defendant Beckham with
violating 26 U.S.C. § 7212(a), which provides:
Whoever corruptly or by force or threats of
force (including any threatening letter or
communication) endeavors to intimidate or
impede any officer or employee of the United
States acting in an official capacity under
this title, or in any other way corruptly or
by force or threats of force (including any
threatening letter or communication) obstructs
or impedes, or endeavors to obstruct or
impede, the due administration of this title,
shall, upon conviction thereof, be fined not
more than $5,000, or imprisoned not more
than 3 years, or both . . . .
26 U.S.C, § 7212(a). Jury Instruction 9, which Beckham
acknowledges set forth the elements required to sustain
a conviction under § 7212(a), stated that to find
Beckham guilty, the Government must prove beyond
a reasonable doubt:

One, beginning on or about July 1, 2009, and

continuing up to and including on or about
October 19, 2012, the defendant acted with
purpose to obstruct or impede the due admin-

App.26a
istration of the internal revenue laws by
committing one or more of the acts alleged
in Count I.

Two, the defendant’s act had a reasonable

tendency to obstruct or impede the due administration of the internal revenue laws. The
effort need not be successful; and

Three, the defendant acted corruptly, that is

with the intent to secure an unlawful benefit
either for himself or for another.
(ECF No. 132 p. 9)
By its guilty verdict, the jury determined that all
three elements were proven beyond a reasonable
doubt. However, Beckham argues that the Government
failed to prove that that he did something that had
the intended purpose of obstructing or impeding the
IRS. (ECF No. 135 p. 4) Specifically, Beckham asserts
that the jury was never asked to determine whether
he knew the dayplanner contained false entries.
The Government correctly states that knowledge
is not an element of § 7212(a). Instead, the statute
requires the government to prove that Beckham acted
corruptly, that is with the intent to secure an unlawful
benefit either for himself or for another. The Court
finds that the evidence was sufficient for the jury to
find that Beckham sought to secure an unlawful benefit
for J.H., which was a substantial reduction in the
amount of federal income taxes J.H. owed the IRS for
2009 and 2010. A jury determined Beckham acted
corruptly under the statute. The jury further found
that one of these acts, causing JH’s dayplanner calendar
which contained false entries relating to Arbor Homes,
Inc. to be submitted to the IRS, occurred after Beckham

App.27a
became aware of an IRS audit or proceeding. Viewing
the evidence in the light most favorable to the verdict
and drawing all reasonable inference in its favor, the
Court will deny Beckham’s motion for judgment of
acquittal on Count 1. United States v. Wright, 739
F.3d 1160, 1168-69 (8th Cir. 2014).
B.

Motion for a New Trial

In the alternative, Beckham requests a new trial
under Rule 33 of the Federal Rules of Criminal
Procedure as to Count 1. “Rule 33(a) grants a district
court discretion to ‘vacate any judgment and grant a
new trial if the interest of justice so requires.’” United
States v. Schropp, 829 F.3d 998, 1005 (8th Cir. 2016)
(quoting Fed. R. Civ. P. 33(a)). In considering a motion
for new trial, a district court may “‘weigh the evidence,
disbelieve witnesses, and grant a new trial even where
there is substantial evidence to sustain the verdict.’”
Id. (quoting United States v. Campos, 306 F.3d 577,
579 (8th Cir. 2002)). However, “this broad discretion
should be exercised ‘sparingly and with caution.’” Id.
(quoting Campos, 306 F.3d at 579 (8th Cir. 2002)
(internal quotation and citation omitted)).
1. Sufficiency of the Evidence
Beckham raises the same arguments as raised in
the motion for judgment of acquittal. Beckham argues
that the Court should grant a new trial and require
the jury to find that he knew the dayplanner contained
false entries. For the reasons stated above, the Court
will deny Beckham’s motion.

App.28a
2. Jury Instructions and Verdict Form
Next, Beckham argues that he should be granted
a new trial because the jury instruction on § 7212(a)
was improper in that it was inconsistent the Sixth
Circuit in Kassouf. The Court acknowledges that the
split in the circuits may be resolved by the Supreme
Court in Marinello. However, the Court submitted a
special verdict form to allow the jury to consider
whether Beckham violated § 7212(a) after he became
aware of the existence of an IRS audit or proceeding.1
While the use of a special verdict form in criminal
cases is generally disfavored, such special verdict
forms “are appropriate and effective in some circumstances.” United States v. Stegmeier, 701 F.3d 574, 581
(8th Cir. 2012) (citations omitted). The Court finds that
the use of the special verdict form was appropriate in
this case where there was uncertainty regarding the
scope of § 7212. Indeed, Beckham argued that the
Court should follow the Sixth Circuit. To eliminate any
uncertainty and prevent a retrial, the Court allowed
the jury to consider at what point Beckham violated
the statute after he was aware of the existence of an
IRS investigation. See United States v. Ryan, 9 F.3d
660, 671 (8th Cir. 1993), reh’g granted and opinion
vacated (Jan. 5, 1994), opinion reinstated as to special
verdict form on reh’g, 41 F.3d 361, 362 (8th Cir. 1994)
(finding use of special interrogatories did not abridge
defendant’s rights to a fair trial or due process where
questions posed by the judge were in the interest of
“clarity, completeness, and avoidance of the retrial of
a lengthy case” and recognizing “that the use of special
1 The Court notes that at trial Beckham objected to Instruction
9 but not the verdict form.

App.29a
verdict forms, closely crafted and carefully scrutinized,
may be appropriate” where the criminal statute was
as yet undefined).
After thoughtful deliberation, the jury unanimously
found that all three elements of § 7212(a) were met,
and the timing of specific occurrences set forth in the
verdict form did not further guide the jury as to those
elements, nor was it inconsistent with the finding of
guilt. See United States v. Weaver, 554 F.3d 718,
722-23 (8th Cir. 2009) (finding no inconsistency between
the instruction explaining whether defendant was guilty
of conspiracy to distribute and possession with intent
to distribute crack cocaine and the verdict form requiring jury to check the range within which the total
quantity of cocaine fell). Further, there is no indication that the jury was confused about the jury instructions or the verdict form. Id. Therefore, the Court will
deny Beckham’s motion for a new trial based on the
jury instruction for Count 1.
3. Testimony of the Government’s Expert
Beckham also argues that the Court improperly
permitted the Government’s expert to testify as to
what the law is, and thus a new trial is warranted.
Beckham contends that the Court allowed “IRS
Revenue Agent Sarah Parman to testify as to the contours of material participation . . . and permitted IRS
Revenue Agent John Shake to testify as to the contours of material participation . . . .” (ECF No. 135 p. 8)
Courts of Appeals in other circuits have held
that an expert may refer to the law when expressing
his or her opinion; however, the expert may not testify
as to intent. See United States v. Stadtmauer, 620
F.3d 238, 269-70 (3d Cir. 2010) (stating primary

App.30a
limitation on expert testimony by an IRS agent is that
the expert may not testify as to defendant’s state of
mind); United States v. Bedford, 536 F.3d 1148, 1158
(10th Cir. 2008) (finding expert testimony by an IRS
agent expressing an opinion as to the proper tax consequences of a transaction is admissible so long as the
expert does not discuss the ultimate question as to
whether defendant intended to violate the law);
United States v. Mikutowicz, 365 F.3d 65, 71-72 (1st
Cir. 2004) (allowing IRS agent to testify as an expert
witness as to the audit and the rationale which led
the IRS to reach its conclusion that the deductions
were improper).
Here, Agent Parman explained to the jury why the
amounts of nonpassive and passthrough losses claimed
on tax returns were improper. Agent Parman did not
offer any testimony as to Beckham’s state of mind.
Thus, the Court finds that a new trial is not warranted
on the basis Agent Parman’s testimony.
Likewise, the Court finds that Agent Shake did
not testify as an expert but merely testified as to his
examination of the tax returns and his interactions
with Beckham. Agent Shake did not refer to the law
or otherwise express an opinion as to the proper tax
consequences of the returns at issue. Thus, Beckham
is not entitled to a new trial on this ground.
4. Cross-examination of Agent Murray
Next, Beckham argues that he is entitled to a
new trial because the Court improperly precluded
counsel from cross-examining government witness IRS
Special Agent Patric Murray about his 2005 unauthorized access to accounts in a government database
regarding himself, his spouse, and his brother, and the

App.31a
U.S. Attorney’s Office’s refusal to prosecute Agent
Murray. Beckham contends that this information went
to Agent Murray’s credibility, and Beckham should
have been able to use this information to impeach
Agent Murray. Prior to trial, the Government filed a
motion in limine to prevent Beckham from impeaching Agent Murray with evidence of previous misconduct. The Court granted the Government’s motion in
limine.
The Court finds that Agent Murray’s prior misconduct is unrelated to the issues involved in Beckham’s
trial and is not probative of Agent Murray’s character
for truthfulness. “The Confrontation Clause of the
Sixth Amendment guarantees a criminal defendant
the right to confront the witnesses against him.
United States v. Walker, 840 F.3d 477, 486 (8th Cir.
2016) (citation omitted). “However, trial judges retain
‘wide latitude’ to impose reasonable limits on crossexamination based on concerns about, inter alia, confusion of the issues or interrogation that is only marginally relevant. Id. (quoting Delaware v. Van Arsdall,
475 U.S. 673, 679 (1986)). Further, “[a]dmissibility of
prior misconduct which is probative of a witness’
truthfulness is expressly entrusted to the trial court’s
discretion by Rule 608(b).” United States v. Alston,
626 F.3d 397, 403 (8th Cir. 2010) (quoting United
States v. McClintic, 570 F.2d 685, 690-91 (8th Cir.
1978)).
The Court finds that the unauthorized access to
accounts in a government database from 12 years ago
is unrelated to Agent Murray’s investigation of and
testimony regarding statements Beckham made during
an interview and is not probative of Agent Murray’s
character for truthfulness. Allowing Beckham to cross-

App.32a
examine Agent Murray on his prior misconduct would
have resulted in holding a mini-trial on irrelevant
matters. “[W]hen the previous allegations of misconduct
leveled against a witness resulted in no sanctions or
sanctions completely unrelated to the witness’ character
for truthfulness, the danger is great that a jury will
infer more from the previous investigation than is fairly
inferable.” Id. at 404 (citation omitted). In addition,
Agent Murray’s prior misconduct in a database search
was only minimally relevant for purposes of impeaching
his testimony regarding incriminating statements
Beckham made during the investigation. See Walker,
840 F.3d at 486 (finding district court did not abuse
its discretion in limited defendant’s cross-examination
regarding an internal affairs investigation where the
cross-examination would have diverted the jury’s attention to a collateral matter with marginal relevance).
Therefore, the Court will deny Beckham’s motion for a
new trial based on the Court’s denial of cross-examination regarding Agent Murray’s misconduct.
5. Denial of Defendant’s Motion for Mistrial
Last, Beckham argues that he is entitled to a new
trial because the Court improperly denied his motion
for mistrial. During the trial, Beckham moved for a
mistrial after Government witness John Horseman
testified that he fired Beckham because a tax attorney
advised him that the transactions at issue in the case
were fraudulent. After Beckham objected and moved
for a mistrial, the Court overruled the objection and
motion. Instead, the Court offered to instruct the jury
to disregard the statement, but Beckham declined the
offer.

App.33a
“The exposure of a jury to improper testimony
ordinarily is cured by measures less drastic than a
mistrial, such as an instruction to the jury to disregard
the testimony.” United States v. Sherman, 440 F.3d
982, 987 (8th Cir. 2006) (citation omitted). Because
Beckham declined the Court’s offer to instruct the jury
to disregard the witness’ statement, Beckham waived
the issue. United States v. Arceo, 50 Fed. App’x 793,
795 (8th Cir. 2002).
Further, Beckham was found guilty of corruptly
endeavoring to obstruct and impede the due administration of the internal revenue laws. The jury acquitted
him of 3 counts of willfully aiding and assisting in
the preparation of a false income tax return. Because
the jury found Beckham not guilty on these counts,
the Court finds that a single reference regarding fraud
by the witness was not prejudicial to Beckham, and a
new trial is not warranted on the ground that the
Court erred in refusing to grant a mistrial.
Accordingly,
IT IS HEREBY ORDERED that Defendant Mark
Beckham’s Motion to for Judgment of Acquittal or, in
the Alternative, Motion for a New Trial (ECF No. 135)
is DENIED.
IT IS FURTHER ORDERED that no later than
November 13, 2017, each party shall inform the Court
in writing whether it intends to file a motion for
interlocutory appeal.
Dated this 7th day of November, 2017.
/s/ Ronnie L. White
United States District Judge

App.34a
ORDER OF THE EIGHTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(APRIL 15, 2019)
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Appellee,
v.
MARK A. BECKHAM,

Appellant.

________________________
No. 18-1406

Appeal from United States District Court
for the Eastern District of Missouri–St. Louis
(4:16-cr-00300-RLW-1)
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Order Entered at the Direction of the Court:
/s/ Michael E. Gans
Clerk, U.S. Court of Appeals,
Eighth Circuit
April 15, 2019

App.35a
JURY INSTRUCTION NO. 9
Count 1 of the indictment charges the defendant
with corruptly endeavoring to obstruct or impede the
due administration of the internal revenue laws. In
order for you to find the defendant guilty of this charge,
the government must prove each of the following
three elements beyond a reasonable doubt;

One, beginning on or about July 1, 2009, and
continuing up to and including on or about October
19, 2012, the defendant acted with purpose to obstruct
or impede the due administration of the internal
revenue laws by committing one or more of the acts
alleged in Count 1.
Two, the defendant’s act had a reasonable ten-

dency to obstruct or impede the due administration
of the internal revenue laws. The effort need not be
successful; and

Three, the defendant acted corruptly, that is

with the intent to secure an unlawful benefit either
for himself or for another.

If all of these elements have been proved beyond
a reasonable doubt as to the defendant, then you must
find the defendant guilty of the crime charged under
Count 1; otherwise you must find the defendant not
guilty of this crime under Count 1.

App.36a
SPECIAL VERDICT FORM
(SEPTEMBER 13, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
MARK A. BECKHAM,

Defendant.

________________________
No. 4:16 CR 00300 RLW
COUNT 1

We, the jury in the above titled cause, unanimously
find the defendant, MARK A. BECKHAM Guilty of the
crime of corruptly obstructing or impeding the administration of the internal revenue laws, as charged in
Count 1.
If you find the defendant “guilty” of Count 1, you
must answer the following:
Did the defendant commit at least one corrupt act
after becoming aware of the existence of an Internal
Revenue Service audit or proceeding?


Yes

App.37a
If your answer to the question is “yes,” you must
state which paragraph or paragraphs in Count 1 of
the indictment describe acts which you agree occurred
after the defendant became aware of the existence of
an Internal Revenue Service audit or proceeding.
(Check each paragraph which describes acts which the
jury unanimously agrees occurred after the defendant
became aware of the existence of an Internal Revenue
Service audit or proceeding).


Paragraph 10
COUNT 2

We, the jury in the above titled cause, unanimously
find the defendant, MARK A. BECKHAM Not Guilty of
the crime of willfully aiding and assisting in the preparation of a false income tax return, as charged in
Count 2.
COUNT 3
We, the jury in the above titled cause, unanimously
find the defendant, MARK A. BECKHAM Not Guilty of
the crime of willfully aiding and assisting in the preparation of a false income tax return, as charged in
Count 3.
COUNT 4
We, the jury in the above titled cause, unanimously
find the defendant, MARK A. BECKHAM Not Guilty of
the crime of willfully aiding and assisting in the preparation of a false income tax return, as charged in
Count 4.

